            USE OF UNPAID CONSULTANTS BY THE
                 DOD EXCHANGE SERVICES


Report No. D-2001-005                October 16, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
AAFES                 Army and Air Force Exchange Service
FACA                  Federal Advisory Committee Act
                        Office of the Inspector General, DoD
Report No. D-2001-005                                                      October 16, 2000
   Project No. (D2000CK-0082)

         Use of Unpaid Consultants by the DoD Exchange Services

                                 Executive Summary

Introduction. The Special Oversight Panel on Morale, Welfare and Recreation,
Committee on Armed Services, U.S. House of Representatives requested this audit. The
request was made in response to allegations that the Army and Air Force Exchange
Service inappropriately engaged consultants who were financially affiliated with
companies that did business with the exchange and as a result of the relationship, the
exchange made improper procurement actions.

Objectives. The audit objectives were to review the propriety of the military exchanges’
use of consultants, determine whether the use of the consultants complies with prevailing
ethics laws and regulations, and whether any related procurement actions were improper.

Results. The Army and Air Force Exchange Service's use of unpaid consultants did not
fully comply with existing laws and regulations. Army and Air Force Exchange Service
did not require unpaid consultants to file financial disclosure reports, which could have
assisted in identifying potential conflicts of interest. Further, by allowing the unpaid
consultants to serve on its board of directors, the Army and Air Force Exchange Service
may have created an advisory committee within the meaning of the Federal Advisory
Committee Act, yet did not comply with that Act's requirements. As a result, the
potential for, and the appearance of, conflicts of interest existed. We did not, however,
identify any improper procurement actions resulting from the use of the unpaid
consultants. For details of the audit results, see the Finding section of the report, and see
Appendix B for a discussion of the allegations.

Summary of Recommendations. We recommend that the Commander, Army and Air
Force Exchange Service require the consultants to file financial disclosure reports and
attend annual ethics training, alter the relationship between its board of directors and the
consultants, and establish policy on the use of unpaid consultants.

Management Comments. The Army and Air Force Exchange Service agreed to require
the unpaid consultants to file financial disclosure reports and attend annual ethics
training. They also agreed to restructure the working relationship between the
consultants and its board of directors and to establish policy on the use of unpaid
consultants. Refer to the Finding section of the report for a discussion of management
comments and to the Management Comments section of the report for the complete text
of the comments.
Table of Contents

Executive Summary                                            i

Introduction
     Background                                             1
     Objectives                                             2

Finding
     Use of Consultants by DoD Military Exchange Services   3

Appendixes
     A. Audit Process
          Scope and Methodology                              7
          Prior Coverage                                     8
     B. Summary of Allegations                               9
     C. Report Distribution                                 10

Management Comments
     Army and Air Force Exchange Service                    13
Background
    In November 1999, the Special Oversight Panel on Morale, Welfare and
    Recreation, Committee on Armed Services, U.S. House of Representatives
    requested a review of the use of unpaid consultants by the Army and Air Force
    Exchange Service (AAFES). Specifically, the Panel requested that we determine,
    in light of prevailing ethics laws and regulations, the proprietary of engaging as
    advisors, civilian business leaders who are still active in retail business and, in
    some cases, paid board members of companies that do business with the
    exchanges.

    Military Exchange Services. The military exchange services are non-
    appropriated fund activities that are established and operated for the benefit of
    DoD Components. The military exchanges have two primary missions. The first
    is to provide authorized patrons quality merchandise and services at uniformly
    low prices. The second is to provide reasonable earnings for the support of DoD
    morale, welfare and recreation programs. The DoD has three exchange services:
    the Army and Air Force Exchange Service, the Navy Exchange Service
    Command, and the Marine Corps Exchange.

    Use of Unpaid Consultants by AAFES. AAFES had three unpaid consultants
    who provided consulting services to the AAFES Commander. The terms and
    conditions of the consulting services were outlined in no-fee service contracts
    with a 3-year performance period. The unpaid consultants' role was to provide
    advice and recommendations to the Commander. Further, the unpaid consultants
    participated as non-voting members in AAFES board of directors' meetings. In
    February 2000, the Commander directed that AAFES terminate its contracts with
    the unpaid consultants.

    Use of Unpaid Consultants by the Navy Exchange. The Navy Exchange does
    not currently utilize the services of unpaid consultants. However, the Navy
    Exchange used unpaid consultants in the past as part of its Navy Exchange
    Advisory Committee. The committee used the unpaid consultants to provide
    business and financial advice to the exchange. The Navy Exchange discontinued
    its use of consultants when DoD disestablished the Navy Exchange Advisory
    Committee in December 1993.

    Use of Unpaid Consultants by the Marine Corp Exchange. The Marine Corp
    Exchange used two unpaid consultants to provide financial advice to separate
    investment and retirement committees. The Marine Corp Exchange established
    no-fee service agreements with each of the unpaid consultants. The unpaid
    consultants advise the retirement and investment committees on market issues and
    asset allocation, and provide financial trend analysis. One consultant provides his
    services in conjunction with his Marine Corps Reserve commitment and attends
    all committee meetings. The committee on which he serves does not make
    decisions or vote on matters or issues. The other consultant does not




                                         1
     attend all committee meetings and does not participate in all aspects of those
     meetings. Further, he is not present when voting matters are discussed and
     decisions are made.

Objectives
     The audit objectives were to review the propriety of the military exchanges’ use
     of unpaid consultants, determine whether the use of the consultants complies with
     prevailing ethics laws and regulations, and whether any related procurement
     actions were improper. See Appendix A for a discussion of the audit scope,
     methodology, and prior audit coverage.




                                          2
           Use of Consultants by DoD Military
           Exchange Services
           Use of unpaid consultants by AAFES did not fully comply with existing
           laws and regulations governing standards of ethical conduct. This
           occurred because AAFES did not treat the unpaid consultants as special
           Government employees who are subject to ethical standards of conduct
           and reporting requirements of the Joint Ethics Regulation. Also, by
           permitting the unpaid consultants to regularly attend and participate in
           board of directors' meetings, AAFES may have created an advisory
           committee without complying with the requirements of the Federal
           Advisory Committee Act. Finally, AAFES did not have internal policies
           covering the duties, limitations, and requirements for the use of unpaid
           consultants. As a result, the potential for, and the appearance of, conflicts
           of interest existed.

Use of Unpaid Consultants
    Advisors to the Commander. AAFES terminated its contracts with the unpaid
    consultants in February 2000, but continued to use the unpaid consultants as in the
    past. The unpaid consultants provided advice and recommendations to the
    AAFES management on retail industry trends, technology advances, and best
    business practices. The unpaid consultants assisted AAFES in evaluating the
    effectiveness and adequacy of its operations and strategic direction. Further, the
    unpaid consultants' role was to provide a degree of retail experience not otherwise
    available within DoD. AAFES use of unpaid consultants did not fully comply
    with existing laws and regulations governing the standards of ethical conduct.
    Specifically, AAFES did not treat the consultants as special Government
    employees and did not require them to file financial disclosure reports. In
    addition, the unpaid consultants' attendance and participation in AAFES board of
    directors' meetings may have created a Federal advisory committee, yet AAFES
    did not comply with the requirements of the Federal Advisory Committee Act
    (FACA).

Requirements Governing the Use of Consultants
    Special Government Employees. AAFES did not treat the unpaid consultants as
    “special Government employees” and did not require them to file financial
    disclosure reports or attend annual ethics training in accordance with ethics laws
    and regulations. Special Government employees include consultants, experts, and
    members of advisory committees who perform temporary duties either on a full
    time or part time basis, with or without compensation. The Office of Government
    Ethics has issued standards of ethical conduct and requirements for financial
    disclosure and annual ethics training. DoD implemented those standards in DoD
    5500.7-R, "Joint Ethics Regulation," August 30, 1993, which sets forth the basic
    obligations of public service. Sufficient evidence existed to support classifying
    the AAFES unpaid consultants as special Government employees. AAFES

                                         3
    frequently solicited advice from the unpaid consultants and, because of their
    attendance and participation in board of directors' meetings, the consultants
    appeared to be performing a Federal function. If AAFES continues to use these
    consultants as it has in the past, the consultants should be classified as special
    Government employees.

            Financial Disclosure and Ethics Training. The AAFES use of unpaid
    consultants did not comply with the Joint Ethics Regulation disclosure and
    training requirements. AAFES did not require the unpaid consultants to file
    confidential financial disclosure reports or attend annual ethics training. The
    purpose of financial disclosure is to assist an agency in identifying possible
    conflicts of interest and ensuring that the integrity of the organization is protected.
    Because AAFES did not require financial disclosure statements from its unpaid
    consultants, it failed to anticipate and avoid apparent conflicts of interest and did
    not protect itself from the appearance of impropriety.

            Financial Conflict of Interest and Impartiality. The AAFES use of
    unpaid consultants did not comply with conflict of interest statutes. Special
    Government employees are prohibited from making decisions, giving advice or
    making recommendations on particular Government matters if it could have a
    direct effect on an organization or company in which the employee is serving as
    an officer, director, trustee, general partner, or employee. The unpaid consultants
    used by AAFES had financial interests in companies that did business with
    AAFES. We determined that two of the three unpaid consultants used by AAFES
    were paid directors and shareholders of AAFES vendors. Although the unpaid
    consultants did not possess procurement authority and did not appear to influence
    or participate in making specific procurement decisions; to a reasonable person,
    the unpaid consultants’ involvement in AAFES activities created the perception
    that AAFES lacked the ability to be impartial. It is a basic obligation of public
    service that Government employees act impartially and not give preferential
    treatment to a private organization. Even the appearance of partiality or
    preferential treatment is a violation of the regulations on standards of conduct.

Compliance with the Federal Advisory Committee Act
    The Federal Advisory Committee Act (FACA). The AAFES use of unpaid
    consultants may have created a Federal advisory committee within the meaning of
    FACA, yet AAFES did not comply with the requirements of the Act. Title 5,
    United States Code, Appendix 2, "Federal Advisory Committee Act," was enacted
    by Congress to control the growth and operation of the various committees,
    boards, task forces and commissions that were established to advise offices and
    agencies in the executive branch of the Federal Government. Its purpose was to
    ensure that the advice that was provided was objective and accessible to the
    public. FACA and its implementing regulations provide exemptions for certain
    advisory meetings or groups and expressly excludes from its scope any committee
    composed wholly of full-time Federal employees. The participation of the
    unpaid, non-Government consultants in AAFES board of directors' meetings took
    those meetings outside the scope of the FACA exemptions. Further, the court
    concluded in the Association of American Physicians and Surgeons v. Clinton,
    997 F.2nd 898 (D.C.Cir. 1993), that when a consultant’s role in a group of

                                          4
     Federal officials is functionally indistinguishable from that of the other members,
     whether or not they possess decision-making authority, then that group becomes a
     federal advisory committee and is subject to the requirements of the FACA.

             Participation in Board of Directors' Meetings. AAFES permitted the
     unpaid consultants to participate in board of directors' meetings and to perform a
     role that was similar to the actual board members. Consultants regularly attended
     board meetings and, although not voting members, sat with the board members
     through entire board meetings and freely participated in board discussions. The
     unpaid consultants’ photographs were displayed in the boardroom along with
     those of the officially appointed board members, and the consultants were issued
     AAFES building passes rather than contractor passes. The consultants were also
     issued Armed Forces Exchange Identification Cards that allowed them to enter
     and shop at exchanges worldwide.
              Review of Unpaid Consultants' Participation. The former Commander,
     AAFES, did not believe that the unpaid consultants’ working relationship with the
     AAFES board of directors required compliance with FACA. He stated that the
     Board should not be subject to FACA because the unpaid consultants worked
     individually as opposed to a collective body and were present at meetings only to
     observe and offer advice as needed. AAFES General Counsel reviewed the
     arrangement that it had with the unpaid consultants to determine whether it was
     consistent with the requirements of FACA. The AAFES General Counsel stated
     that an independent auditor may conclude that the AAFES board of directors
     should have been subject to the requirements of FACA. AAFES General Counsel
     recommended that substantive changes be made to the way the unpaid consultants
     assist the Commander, AAFES and the board of directors; or that the
     requirements of the FACA be met. We agree with the AAFES General Counsel
     recommendations.

Policy on the Use of Unpaid Consultants
     AAFES did not have a policy in place that specifically outlined how the unpaid
     consultants would be utilized or what their role and responsibilities within
     AAFES would be. There was no guidance that defined the functions that the
     unpaid consultants could or could not perform. Further, there were no controls in
     place to avoid potential conflicts of interest. AAFES did not address the need for
     the unpaid consultants to comply with the provisions of the standards of ethical
     conduct that relate to conflicting financial interests and impartiality in performing
     official duties.




                                           5
Conclusion
    The working relationship that AAFES had with its unpaid consultants did not
    comply with ethical standards of conduct or conflict of interest statutes.
    Specifically, AAFES did not identify the unpaid consultants as special
    Government employees and did not require the unpaid consultants to file financial
    disclosure reports or attend annual ethics training. Further, AAFES allowed the
    unpaid consultants to attend and participate in board of directors' meetings in such
    a way that the Board appears to have been converted to a Federal advisory
    committee, without complying with the requirements of the FACA. As a result of
    these actions, AAFES was not able to prevent the appearance of, or the potential
    for, conflicts of interest.

Recommendations and Management Comments
    We recommend that the Commander, Army and Air Force Exchange
    Service:

       1. Direct consultants to file financial disclosure reports and to
    participate in annual ethics training to eliminate the potential for, or
    appearance of, conflicts of interest and to ensure compliance with the rules
    governing ethical standards of conduct.

    Management Comments. The Army and Air Force Exchange Service concurred
    and stated that the current consultants were notified that they would be required to
    file a financial disclosure report and attend annual ethics training. The Army and
    Air Force Exchange Service also stated that future consultants would be required
    to file financial disclosure reports before performing any official work associated
    with the position.

       2. Restructure the relationship between the board of directors and the
    consultants to ensure that the board of directors is not considered to be a
    Federal advisory committee, or else take steps to ensure that the board of
    directors complies with Federal Advisory Committee Act.

    Management Comments. The Army and Air Force Exchange Service concurred
    and agreed to restructure the consultants’ relationship with the board of directors
    and implement those changes prior the January 2001 meeting.

       3. Establish policy on the use of unpaid consultants.

    Management Comments. The Army and Air Force Exchange Service concurred
    and stated that an Exchange Operating Policy would be developed and published
    no later than January 1, 2001.




                                         6
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We conducted the audit on use of unpaid consultants by the
    DoD exchanges in response to a Congressional request. This audit report
    addresses the propriety of the military exchanges using consultants in certain
    instances, and whether the use of the consultants complied with ethics laws and
    regulations. We conducted the review from December 1999 to August 2000. We
    reviewed applicable information and documentation dated May 1971 through
    June 2000. During the audit we reviewed the exchanges’ rationale for using or
    not using unpaid consultants. Specifically, to accomplish our audit objectives,
    we:

       •   reviewed applicable ethics standards and Federal statutes;

       •   interviewed personnel from the all three military exchange services to
           obtain an understanding of how unpaid consultants are used, the frequency
           of their use, and the advice that they provide;

       •   reviewed and evaluated the no-fee service contracts and agreements used
           by the exchanges to formalize the consulting arrangement;

       •   contacted and visited several exchange sites to determine how the
           consultants were used at the base level versus headquarters level;

       •   interviewed retail buyers at AAFES to determine the amount of influence
           the unpaid consultants have over purchasing merchandise for resale; and

       •   obtained and evaluated Federal and DoD policies on the use of consultants
           and their participation in advisory committees.

    Limitations to Scope. We did not review the management control program
    because the scope of the audit was limited to addressing those areas of concern
    identified in the congressional request. Further, we limited our review to the use
    of unpaid consultants because the allegations only referenced unpaid consultants.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.

    Use of Computer Processed Data. We did not rely on computer-processed data
    or statistical sampling procedures.




                                         7
    Audit Type, Period, and Standards. We performed this program audit from
    December 1999 through August 2000 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and several private companies. Further details are
    available upon request.

Prior Coverage
    No prior coverage has been conducted on the use of unpaid consultants during the
    last 5 years.




                                        8
Appendix B. Summary of Allegations
   The summary of the allegations made to the Special Oversight Panel on Morale,
   Welfare and Recreation, Committee on Armed Services, U.S. House of
   Representatives by a constituent, and our audit results, are discussed below.

   Allegation 1. The Army and Air Force Exchange Service inappropriately
   engaged consultants who were financially affiliated with companies that did
   business with the exchange.

   Audit Results: The allegation was substantiated. We determined that AAFES
   had three unpaid consultants who provided retail business and financial advice to
   the Commander. Of the three unpaid consultants, two were paid directors and
   shareholders of AAFES vendors. We determined that the use of unpaid
   consultants by AAFES did not comply with existing laws, regulations, and ethical
   standards. Specifically, AAFES did not treat the unpaid consultants as special
   Government employees and therefore did not require them to file confidential
   financial disclosure reports and attend annual ethics training. As a result, AAFES
   was unable to readily identify potential conflicts of interest. For a full discussion
   of the use of unpaid consultants by AAFES, see the finding section of this report.

   Allegation 2. As a result of the relationship between AAFES and the consultants,
   AAFES made improper procurement actions.

   Audit Results. The allegation was not substantiated. We found no evidence to
   suggest that consultants influenced the procurement decisions of AAFES. The
   unpaid consultants provided global retailing advice and did not specifically
   recommend particular brands to AAFES personnel. We also found that the
   interaction between the unpaid consultants and the retail buyers was limited.
   AAFES personnel stated that procurement decisions are based on an evaluation of
   the product and are selected for resale based on such factors as quality, price,
   value, consumer trends, customer acceptance, industry sales, and past sale history.
   Further, they stated that stock assortment is limited by store space and funds.




                                         9
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)
Assistant Secretary of Defense (Force Management Policy)
  Director, Resale and NAF Policy Office

Department of the Army
Secretary of the Army
  Chief of Staff, Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Commander, Navy Exchange Service Command
Deputy Chief of Staff for Manpower and Reserve Affairs
  Director, Personal and Family Readiness Division

Department of the Air Force
Secretary of the Air Force
  Chief of Staff, Air Force
      Commander, Army and Air Force Exchange Service
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                         10
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Armed Services
  Special Oversight Panel on Morale, Welfare and Recreation
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          11
Army and Air Force Exchange Service Comments




                  13
14
15
Audit Team Members
   The Contract Management Directorate, Office of the Assistant Inspector General
   for Auditing, DoD, prepared this report.

     Paul J. Granetto
     Joseph P. Doyle
     Michael J. Tully
     Lisa M. Such
     Ronald L. Rembold
     Tracy L. Smelley
